Department of Homeland Security
   Ofﬁce of Inspector General

             Information Technology Management 
 

            Letter for the Federal Law Enforcement 
 

               Training Center Component of the 
 

               FY 2010 DHS Financial Statement 
 

                              Audit 
 





OIG-11-76                                            April 2011
                                                                                     Office of Inspector General

                                                                        u.s.   Department ofHome/and Security
                                                                                        Washington, DC 25028




                                                                          Homeland
                                                                          Security
                                         AP~   Zt) 2011

                                               Preface

The Department of Homeland Security (DHS) Office ofInspector General (DIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to,the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2010 Federal
Law Enforcement Training Center (FLETC) component of the DHS financial statement audit as of
September 30, 2010. It contains observations and recommendations related to information
technology internal control that were summarized in the Independent Auditor's Report dated
November 12, 2010 and presents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit procedures
at the FLETC component in support of the DHS FY 2010 financial statements and prepared this
IT management letter. KPMG is responsible for the attached IT management letter dated March
18,2011, and the conclusions expressed in it. We do not express opinions on DHS' financial
statements or internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.



                                  ~  Assistant Inspector General
 

                                     Information Technology Audits
 

                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036-3389




March 18, 2011

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Federal Law Enforcement Training Center

Ladies and Gentlemen:
We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department), as of September 30, 2010 and the related statement of custodial activity for the year then
ended (herein after referred to as “financial statements”). We were also engaged to examine the
Department’s internal control over financial reporting of the balance sheet as of September 30, 2010 and
the statement of custodial activity for the year then ended. We were not engaged to audit the statements
of net cost, changes in net position, and budgetary resources as of September 30, 2010 (hereinafter
referred to as “other fiscal year (FY) 2010 financial statements”), or to examine internal control over
financial reporting over the other FY 2010 financial statements.
Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the scope
of our work was not sufficient to enable us to express, and we did not express, an opinion on the financial
statements or on the effectiveness of DHS’ internal control over financial reporting of the balance sheet as
of September 30, 2010, and related statement of custodial activity for the year then ended. Additional
deficiencies in internal control over financial reporting, potentially including additional material
weaknesses and significant deficiencies, may have been identified and reported had we been able to
perform all procedures necessary to express an opinion on the financial statements or on the effectiveness
of DHS’ internal control over financial reporting of the balance sheet as of September 30, 2010, and
related statement of custodial activity for the year then ended; and had we been engaged to audit the other
FY 2010 financial statements, and to examine internal control over financial reporting over the other FY
2010 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. A material weakness is a deficiency, or a combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
The Federal Law Enforcement Training Center (FLETC) is a component of DHS. During our audit
engagement, we noted certain matters in the areas of information technology (IT) configuration
management, access controls, and security management with respect to FLETC’s financial systems
information technology (IT) general controls, which we believe contribute to an IT material weakness at
the DHS level. These matters are described in the IT General Control Findings and Recommendations
section of this letter.



   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                Financial Statement Audit

                                    KPMG LLP is a Delaware limited liability partnership,
                                    the U.S. member firm of KPMG International Cooperative
                                    (“KPMG International”), a Swiss entity.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 12, 2010. This letter represents the separate limited distribution letter mentioned in that report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR).
Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and
correct misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to
the risk that controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate. We aim to use our knowledge of FLETC
gained during our audit engagement to make comments and suggestions that are intended to improve
internal control over financial reporting or result in other operating efficiencies. We have not considered
internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key FLETC financial systems and IT infrastructure within the scope of our engagement to
audit the FY 2010 DHS financial statements in Appendix A; a listing of the FY 2010 IT Notices of
Findings and Recommendations (NFR) at FLETC in Appendix B; and the status of the prior year NFRs
and a comparison to current year NFRs at FLETC in Appendix C. Our comments related to certain
additional matters have been presented in a separate letter to the Office of Inspector General and the
FLETC Chief Financial Officer.

FLETC’s written response to our comments and recommendations has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

This communication is intended solely for the information and use of DHS and FLETC management,
DHS Office of Inspector General, Office of Management and Budget (OMB), U.S. Government
Accountability Office, and the U.S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties.

Very truly yours,




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 
 

                                Financial Statement Audit
 

                               Department of Homeland Security
 

                          Federal Law Enforcement Training Center 
 

                           Information Technology Management Letter
                                      September 30, 2010




                INFORMATION TECHNOLOGY MANAGEMENT LETTER
                                      TABLE OF CONTENTS
                                                                                                   Page
Objective, Scope, and Approach                                                                      1
 



Summary of Findings and Recommendations                                                             3
 



IT General Control Findings and Recommendations 

       Configuration Management                                                                     4


       Access Control                                                                               4


       Security Management                                                                          4
 



Application Controls                                                                                7
 



Management’s Comments and OIG Response                                                              7
 




                                            APPENDICES
Appendix                                           Subject                                         Page

   A	 	     Description of Key FLETC Financial Systems and IT Infrastructure within the Scope of    8
 

            the FY 2010 DHS Financial Statement Audit 

   B	 	     FY 2010 Notices of IT Findings and Recommendations at FLETC 	                           11
 

            �    Notice of Findings and Recommendations - Definition of Severity Ratings            12
 

   C        Status of Prior Year Notices of Findings and Recommendations and Comparison to          18
 

            Current Year Notices of Findings and Recommendations at FLETC
 

   D        Management Response                                                                     20
 





Information Technology Management Letter for the FLETC component of the FY 2010 DHS 

                             Financial Statement Audit 

                                 Department of Homeland Security
 

                            Federal Law Enforcement Training Center 
 

                             Information Technology Management Letter
                                        September 30, 2010

                             OBJECTIVE, SCOPE AND APPROACH

In connection with our engagement to audit DHS’ balance sheet as of September 30, 2010 and the related
statement of custodial activity for the year then ended, we performed an evaluation of the information
technology general controls (ITGC), at FLETC to assist in planning and performing our audit. The
Federal Information System Controls Audit Manual (FISCAM), issued by GAO, formed the basis of our
ITGC evaluation procedures. The scope of the ITGC evaluation is further described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating general controls and the IT environment of a federal
agency. FISCAM defines the following five control functions to be essential to the effective operation of
the general IT controls environment.

�	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
�	 Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.
�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   that systems are configured and operating securely and as intended.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit procedures, we also performed technical security testing for
key network and system devices. The technical security testing was performed both over the Internet and
from within select FLETC facilities, and focused on test, development, and production devices that
directly support key general support systems.




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                Financial Statement Audit 
 

                                          Page 1 
 

                                Department of Homeland Security
 

                           Federal Law Enforcement Training Center 
 

                            Information Technology Management Letter
                                       September 30, 2010



In addition to testing FLETC’s general control environment, we performed application control tests on a
limited number of FLETC’s financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.

   �	 Application Controls (APC) - Application controls are the structure, policies, and procedures that
      apply to separate, individual application systems, such as accounts payable, inventory, or payroll.




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                Financial Statement Audit 
 

                                          Page 2 
 

                                 Department of Homeland Security
 

                            Federal Law Enforcement Training Center 
 

                             Information Technology Management Letter
                                        September 30, 2010

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2010, FLETC took corrective action to address prior year IT control weaknesses. For
example, FLETC made improvements over configuration management in Momentum and the Glynco
Area Network (GAN) and management review over Momentum auditing logs. However, during FY
2010, we continued to identify IT general control weaknesses that could potentially impact FLETC’s
financial data. The most significant weaknesses from a financial statement audit perspective were related
to the GAN logical access controls and weaknesses over physical security and security awareness.
Collectively, the IT control weaknesses limited FLETC’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these weaknesses negatively impacted the internal controls over FLETC financial reporting and
its operation and contribute to a material weakness at the department level under standards established by
the American Institute of Certified Public Accountants. In addition, based upon the results of our test
work, we noted that FLETC did not fully comply with the requirements of the Federal Financial
Management Improvement Act (FFMIA).
Of the six findings identified during our FY 2010 testing, one was a new IT finding. These findings
represent control deficiencies in three of the five FISCAM key control areas. The FISCAM areas
impacted include configuration management, security management, and access controls. The specific
weakness were 1) lack of management and review of system audit logs, 2) ineffective account
management issues involving user profiles, and account lockout, and 3) inadequately trained personnel on
basic security management policies and procedures. These control deficiencies may increase the risk that
the confidentiality, integrity, and availability of system controls and FLETC financial data could be
exploited thereby compromising the integrity of financial data used by management as reported in DHS’
consolidated financial statements. While the recommendations made by KPMG should be considered by
FLETC, it is the ultimate responsibility of FLETC management to determine the most appropriate
method(s) for addressing the weaknesses identified based on their system capabilities and available
resources.




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                Financial Statement Audit 
 

                                          Page 3 
 

                                 Department of Homeland Security
 

                            Federal Law Enforcement Training Center 
 

                             Information Technology Management Letter
                                        September 30, 2010


            IT GENERAL CONTROL FINDINGS AND RECOMMENDATIONS

Findings:
During the FY 2010 DHS financial statement audit, we identified the following IT and financial system
control deficiencies at FLETC that in the aggregate contribute to the IT material weakness at the
Department level.


Configuration Management

�	 Momentum and GAN changes are not being documented throughout the change control process from
   the testing of changes to the final approval of the changes prior to implementation, and;
�	 Distribution and implementation of Momentum and GAN changes are not being controlled.

Access Control

�	 Weak logical access controls over the GAN were noted as follows:
        �	 The GAN resets the account failed logon counter after 20 minutes, which does not meet the
           DHS 4300A requirement of 24 hours. Upon notification, FLETC immediately remediated the
           configuration issue, therefore, no recommendation will be offered for this issue.
�	 GAN security violation audit logs lack management review and signoff.
�	 Momentum user profile creation or modification is not logged or tracked.
�	 Weak logical access controls over the Student Information System (SIS) were noted as follows:
       �	 Password length is configured to a minimum of 6, which does not meet the DHS 4300A
          requirement of 8.
       �	 SIS is not configured to reset the account failed logon counter, which does not meet the DHS
          4300A requirement of a reset every 24 hours.
       �	 User lockout occurs after 6 invalid attempts (only 3 attempts permitted per DHS 4300A).
       �	 A sample of audit logs that track changes to system data could not be provided.
       �	 User profile creation is not tracked and a listing of profile creation dates could not be
          provided.
       �	 Periodic review of user accounts is not being performed.

Security Management

We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects included physical access to media and equipment that
housed financial data and information residing within a FLETC employee’s or contractor’s work area,
which could be used by others to gain unauthorized access to systems housing financial information. The

   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                Financial Statement Audit 
 

                                          Page 4 
 

                                   Department of Homeland Security

                              Federal Law Enforcement Training Center 

                               Information Technology Management Letter
                                          September 30, 2010

testing was performed at various FLETC locations that process and/or maintain financial data. The
specific results are listed as shown in the following table:


                                                  FLETC Locations Tested
                             IT Office,     Finance    Procurement,      Telecommunications        Total
   Exceptions Noted           Building       Office,     and SIS,        Facility, Building 94   Exceptions
                                681         Building    Building 93                               by Type
                                               66
User Name and                    1             3             0                      0                4
Passwords
For Official Use Only            0              0                0                 0                 0
(FOUO)
Keys/Badges                      0               0               0                 0                 0
Personally Identifiable          0              8*               0                 0                 8
Information (PII)
Server Names/IP                  2              0                0                 0                 2
Addresses
Laptops                          0              0                0                 0                 0
External Drives                  0              0                0                 0                 0
Credit Cards                     0              1                0                 0                 1
Classified Documents             0              0                0                 0                 0
Other - Describe                 2              0                0                 0                 2
                            workstations
                             logged in
                                w\o
                            screensaver
                             activated
Total Exceptions by              5               12               0                0                17
Location
*37 boxes of PII (names, birth date, address, SS#). Counted as one incident



Recommendations:
We recommend that the FLETC Chief Information Officer and Chief Financial Officer, in coordination
with the DHS Office of Chief Financial Officer and the DHS Office of the Chief Information Officer,
make the following improvements to FLETC’s financial management systems and associated information
technology security program.

Configuration Management
We recommend that FLETC management update and enforce current procedures to ensure changes are
fully documented throughout the change control process to include the results of testing the change,
review of the change test results, and final approval to proceed with the implementation.




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                Financial Statement Audit 
 

                                          Page 5 
 

                                 Department of Homeland Security
 

                            Federal Law Enforcement Training Center 
 

                             Information Technology Management Letter
                                        September 30, 2010

Access Control
�	 Continue with the procurement and deployment of ArcSight Enterprise Security Management (ESM)
   as a replacement Security Information Management (SIM) solution for audit logging.
�	 Develop a Standard Operating Procedure (SOP) to implement management oversight for Momentum
   access authorizations for user’s profiles created or modified during the fiscal year.
�	 Configure or enhance existing automated controls to meet DHS requirements in financial systems.
   Alternatively, adequate mitigating controls may be relied upon to assure financial data is protected.

Security Management
We recommend that FLETC continue the physical controls enhancements in the Finance Division,
Building 66. In addition, develop a Standard Operating Procedure (SOP) to address Safeguarding of PII
and Credit Card data in the Finance Division, implement use of the secure file storage rooms, and address
entry controls for access points in the building.




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                Financial Statement Audit 
 

                                          Page 6 
 

                                Department of Homeland Security
 

                           Federal Law Enforcement Training Center 
 

                            Information Technology Management Letter
                                       September 30, 2010




                                   APPLICATION CONTROLS

We did not identify any findings in the area of application controls during the fiscal year 2010 FLETC
audit engagement.


                   MANAGEMENT’S COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from FLETC’s Chief Information
Officer. Generally, FLETC management agreed with our findings and recommendations.
FLETC management has developed a remediation plan to address these findings and
recommendations. A copy of the comments is included in Appendix D.

OIG Response

We agree with the steps that FLETC management is taking to satisfy these recommendations.




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 
 

                                Financial Statement Audit 
 

                                          Page 7 
 

                                                                           Appendix A
                          Department of Homeland Security
 

                     Federal Law Enforcement Training Center 
 

                      Information Technology Management Letter
                                 September 30, 2010




                                   Appendix A


Description of Key FLETC Financial Systems and IT Infrastructure
 within the Scope of the FY 2010 DHS Financial Statement Audit




 Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                              Financial Statement Audit 
 

                                        Page 8 
 

                                                                                              Appendix A
                                 Department of Homeland Security
                            Federal Law Enforcement Training Center
                             Information Technology Management Letter
                                        September 30, 2010

Below is a description of significant FLETC financial management systems and supporting IT
infrastructure included in the scope of the DHS Financial Statement Audit.

Financial Accounting and Budgeting System (FABS)
�	 Processing Location: FLETC Headquarters in Glynco, GA

General System Description:
The FLETC FABS application is an all-in-one financial processing system. It functions as the
computerized accounting and budgeting system for FLETC. The FABS system exists to provide all of the
financial and budgeting transactions in which FLETC is involved. The FABS environment primarily
consists of the latest version of the Momentum version 6.1 COTS software, an Oracle 10g database and
its companion Oracle 10.2 Database Management System (DBMS). An application called “Tuxedo,” also
resides on a separate server. The Tuxedo middleware holds 67 executable files. These files are scripts that
process daily information and are not directly accessible by users. The FABS application and servers
reside on the FLETC LAN in a Hybrid physical network topology and are accessible from four sites:
Glynco, GA, Washington D.C., Artesia, New Mexico, and Cheltenham, MD.
�	 Hardware: Hewlett Packard ProLiant BL465c Blade Servers (web and application) and Hewlett
   Packard ProLiant BL685c Blade Servers (database)
�	 Operating System: Microsoft Windows 2003 Server running on virtual machines on top of VMware
   Infrastructure 3.5 Enterprise hypervisor on the web and application servers
�	 Database: Red Hat Enterprise Linux
�	 Security Software: FABS system does not currently have a firewall scheme and resides on FLETC
   LAN that has a firewall in place
Interfaces:
�	   National Finance Center (NFC) Payroll System
�	   Student Information System
�	   Treasury Information Executive Repository (TIER)
�	   US Coast Guard Interface
�	   Kansas City Financial Center (KFC)

Glynco Administrative Network
�	 Processing Location: FLETC Headquarters in Glynco, GA

General System Description:
The purpose of GAN is to provide access to IT network applications and services, to include voice, to
authorized FLETC personnel, contractors and partner organizations located at the Glynco, Georgia
facility. It provides authorized users access to email, internet services, required applications such as
Financial Management Systems (FMS), Procurement systems, Property management systems, Video
conferencing, and other network services and shared resources.
�	 Hardware: Cisco ACS TACAS Server, Avaya 8700 Media Servers, Dell Poweredge servers 1750,
   1850, 1950, 2650, 2850, 2950, and 6650.
�	 Operating System: Windows XP SP2 (Desktop)

     Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                                  Financial Statement Audit 
 

                                            Page 9 
 

                                                                               Appendix A
                                Department of Homeland Security
                           Federal Law Enforcement Training Center
                            Information Technology Management Letter
                                       September 30, 2010

�   Database: Redhat Linux 4 Enterprise edition
�   Security Software: ASA 5500 series firewall and static IP addresses
Interfaces:
�   FMS
�   DHS HQ




    Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 
 

                                 Financial Statement Audit 
 

                                          Page 10 
 

                                                                           Appendix B
                         Department of Homeland Security
 

                    Federal Law Enforcement Training Center 
 

                     Information Technology Management Letter
                                September 30, 2010




                                  Appendix B 
 

FY 2010 Notices of IT Findings and Recommendations at FLETC 
 





Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 

                             Financial Statement Audit 
 

                                      Page 11 
 

                                                                                            Appendix B
                                  Department of Homeland Security
 

                             Federal Law Enforcement Training Center 
 

                              Information Technology Management Letter
                                         September 30, 2010




Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the
DHS Consolidated Independent Auditors’ Report.

      1 – Not substantial 
 

      2 – Less significant 
 

      3 – More significant 
 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity
for consolidated reporting purposes.

These ratings are provided only to assist the DHS in prioritizing the development of its corrective action
plans for remediation of the deficiency.




   Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 
 

                                Financial Statement Audit 
 

                                         Page 12 
 

                                                                                                                                  Appendix B
                                                 Department of Homeland Security
 

                                            Federal Law Enforcement Training Center 

                                             Information Technology Management Letter
                                                        September 30, 2010

                                       Notice of Findings and Recommendations – Detail


 NFR                                                                                                                      New     Repeat   Severity
                               Condition                                          Recommendation
 #No                                                                                                                      Issue    Issue    Rating
FLETC­     During our FY 2010 review of FLETC’s configuration      The FLETC management will update and enforce            X                   2
IT-10-01   management policies and procedures, we noted that       current procedures to ensure changes are fully
           FLETC does not conduct the following:                   documented throughout the change control process
           � Momentum and GAN changes are not being                to include the results of testing the change, review
              documented throughout the change control             of the change test results, and final approval to
              process from the testing of changes to the final     proceed with the implementation.
              approval of the changes prior to implementation,
              and;
           � Distribution and implementation of Momentum
              and GAN changes are not being controlled.

FLETC­     During the FY 2009 financial statement audit, we        Due to remediation of this finding within the fiscal             X          3
IT-10-02   noted several weaknesses with the logical access        year, no recommendation is required.
           controls for the GAN.

           During our review in FY2010, we reviewed the logical
           access controls over the GAN. Per our review, we
           noted that FLETC has remediated all of the logical
           access controls over the GAN; however, KPMG noted
           that the GAN was configured to reset the lockout
           counter after 20 minutes. This does not meet the DHS
           4300A requirement of 24 hours. Upon notification,
           FLETC immediately remediated the configuration
           issue. However, the configuration was inappropriately
           configured for the majority of the fiscal year.

FLETC­     In FY 2009, KPMG conducted After-Hours                  Finance Division, Building 66 Safeguarding of PII                X          3
IT-10-03   walkthrough testing to complement our IT audit          and Credit Card data: Modifications to Building
           testing efforts as part of the FY 2010 DHS Financial    66 have recently been completed which provide
           Statement Audit and Audit of Internal Control over      secure file storage rooms and entry controls for all
           Financial Reporting. We also performed after-hours      access points in the building.        A Standard
  Information Technology Management Letter for the FLETC Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 13 
 

                                                                                                                                     Appendix B
                                                   Department of Homeland Security
 

                                              Federal Law Enforcement Training Center 
 

                                               Information Technology Management Letter
                                                          September 30, 2010

 NFR                                                                                                                         New     Repeat   Severity
                                 Condition                                            Recommendation
 #No                                                                                                                         Issue    Issue    Rating
           physical security testing to identify risks related to      Operating Procedure (SOP) will be drafted to
           non-technical aspects of IT security. These non­            address Safeguarding of PII and Credit Card data
           technical IT security aspects include physical access to    in the Finance Division, implement use of the
           equipment that houses financial data and information        secure file storage rooms, and address entry
           residing on the desks of FLETC personnel, which             controls for access points in the building. This
           could be used by others to inappropriately access           will be developed and implemented by November
           financial information.                                      15, 2010. Additionally, specific requirements for
                                                                       Safeguarding of PII and Credit Card data will be
           For our review in FY 2010 follow up test work was           added to each Finance Division employee’s
           performed at various FLETC buildings in the Glynco,         FY2011 (and future) Annual Performance Work
           Georgia complex. The designated FLETC Technical             Plan to ensure there is no misunderstanding
           Point of Contact and representatives from the DHS           regarding each employee’s responsibilities in this
           Office of Inspector General, the DHS Office of              area.
           Information Security, and the FLETC Office of
                                                                       Finance Office, Building 66 User Name and
           Physical Security accompanied KPMG to monitor
                                                                       Passwords: Remedial training will be conducted
           testing and validate the results. After gaining access to
                                                                       regarding safeguarding User Name and Passwords.
           the facilities, we inspected a random selection of desks
                                                                       Additionally,    specific    requirements      for
           and offices, looking for items such as improper
                                                                       safeguarding User Name and Passwords will be
           protection of system passwords, unsecured
                                                                       added to each Finance Division employee’s
           information system hardware, documentation marked
                                                                       FY2011 (and future) Annual Performance Work
           FOUO, and unlocked network sessions. Our selection
                                                                       Plan to ensure there is no misunderstanding
           of desks and offices was not statistically derived, and
                                                                       regarding each employee’s responsibilities in this
           therefore we are unable to project results to the
                                                                       area.
           component or department as a whole. We reviewed
           over 90 desks and cubicles within the four locations.
                                                                       For the CIO Operations and Support Division
                                                                       (OSD) in Bldg 681, remedial training will be
                                                                       conducted to ensure employees and contractors
                                                                       lock their doors and safeguard sensitive
                                                                       information. OSD will ensure the workstation
                                                                       screensaver feature is enabled on its workstations.

FLETC­     During the FY 2009 financial statement audit, KPMG          FLETC’s current SIM solution provides no                        X          2
IT-10-04   determined that logs of auditable events in the GAN         capability to correlate or aggregate audit logs
           are not being reviewed to identify potential incidents.     which results in an arduous, un-trackable and

  Information Technology Management Letter for the FLETC Component of the FY 2010 DHS Financial Statement Audit 
 

                                                     Page 14 
 

                                                                                                                                    Appendix B
                                                  Department of Homeland Security
 

                                             Federal Law Enforcement Training Center 
 

                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                        New     Repeat   Severity
                                Condition                                           Recommendation
 #No                                                                                                                        Issue    Issue    Rating
                                                                     unmanageable audit log review process when
           During our FY 2010 review, KPMG determined that           handling millions of records each day. FLETC is
           FLETC has implemented the Security Information            currently in the process of procuring ArcSight
           Management System (SIM) with capabilities to              ESM as a replacement SIM solution to address
           manage and store logs of auditable events. However,       these and other shortcomings with the current
           we determined that management does not have a             solution. ArcSight ESM allows for both simplified
           formal process for reviewing the audit logs on a          and exceptionally complex event correlation rule
           periodic basis.                                           authorship.

                                                                     FLETC will deploy the ArcSight ESM solution
                                                                     during FY 2011. Users, such as ISSOs, will be
                                                                     provided focused dashboards with correlated
                                                                     information pertinent to their areas of
                                                                     responsibility. Audit logs will be reviewed as
                                                                     correlated and aggregated data and can be drilled
                                                                     down to in detail and reviewed when suspicious or
                                                                     anomalous records are found. Customized reports
                                                                     and automated alerts will be configured for each
                                                                     system and tailored for the audit log reviewer.
                                                                     Audit logs of access to the SIM itself will also be
                                                                     generated and reviewed to ensure users such as
                                                                     ISSO’s and the SOC are utilizing the system and
                                                                     reviewing audit records and responding to the
                                                                     configured automated alerts in a timely manner.

FLETC­     During the FY 2009 financial statement audit, KPMG        FLETC has implemented profile logging,                           X          3
IT-10-05   determined that access control weaknesses existed         however, due to the overwhelming volume of
           over Momentum access authorizations for user’s            events logged by the system, this has proven to be
           profiles created or modified during the fiscal year.      unusable in terms of identifying relevant activity.
                                                                     FLETC is working to better analyze and manage
           During the FY 2010 financial statement audit, KPMG        the profile logging reports. An SOP will be
           determined that access control weaknesses still existed   drafted to implement management oversight for
           over Momentum access authorizations for user’s            Momentum access authorizations for user’s
           profiles created or modified during the fiscal year.      profiles created or modified during the fiscal year.
           Specifically, we learned that new users and profile       This process will be developed and implemented
  Information Technology Management Letter for the FLETC Component of the FY 2010 DHS Financial Statement Audit 
 

                                                     Page 15 
 

                                                                                                                              Appendix B
                                                 Department of Homeland Security
 

                                            Federal Law Enforcement Training Center 

                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                  New     Repeat   Severity
                                Condition                                         Recommendation
 #No                                                                                                                  Issue    Issue    Rating
           changes are not being tracked by FLETC.                  by November 30, 2010.

FLETC­     During the FY 2009 financial statement audit, we         FLETC will update the existing Risk Acceptance              X          2
IT-10-06   noted several weaknesses around access controls for      to include the password exceptions noted in the
           SIS including:                                           condition.
               � SIS is configured to have a password history
                   of two passwords stored
               � SIS is not configured to reset the account
                   failed logon counter
               � Users were not locked out after three invalid
                   access attempts.
               � SIS system administrators share a ‘root’
                   username and password to perform
                   administrative responsibilities.
               � A sample of audit logs that track changes to
                   system data could not be provided.
               � User profile creation is not tracked and a
                   listing of profile creation dates could not be
                   provided.
               � Evidence of periodic review of user accounts
                   could not be provided.

           In FY 2010, we inquired with FLETC and noted that
           although some corrective actions have taken place, the
           following has not yet been implemented.
                � Users are not being locked out after three
                   invalid attempts.
                � SIS password length minimum is configured a
                   minimum of six.
                � SIS does not require a combination of
                   alphabetic, numeric, and special characters.
                � Audit logs that track changes to system data
                   are not being reviewed.

  Information Technology Management Letter for the FLETC Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 16 
 

                                                                                                         Appendix B
                                            Department of Homeland Security
 

                                       Federal Law Enforcement Training Center 

                                        Information Technology Management Letter
                                                   September 30, 2010

NFR                                                                                            New       Repeat   Severity
                          Condition                               Recommendation
#No                                                                                            Issue      Issue    Rating
          �   Profile creation and changes are not being
              tracked and a listing of profile updates could
              not be provided.
          �   Periodic review of user accounts is not being
              conducted.




Information Technology Management Letter for the FLETC Component of the FY 2010 DHS Financial Statement Audit 

                                                   Page 17 
 

                                                                                   Appendix C
                              Department of Homeland Security
 

                         Federal Law Enforcement Training Center 
 

                          Information Technology Management Letter
                                     September 30, 2010




                                       Appendix C 
 


  Status of Prior Year Notices of Findings and Recommendations and 
 

                            Comparison to 
 

  Current Year Notices of Findings and Recommendations at FLETC 
 





Information Technology Management Letter for the FLETC Component of the FY 2010 DHS Financial 

                                       Statement Audit 
 

                                           Page 18 
 

                                                                                         Appendix C
                                  Department of Homeland Security
                             Federal Law Enforcement Training Center
                              Information Technology Management Letter
                                         September 30, 2010


                                                                                    Disposition
   NFR No.                                 Description                        Closed         Repeat

FLETC-IT-09-03   Momentum System Software is Not Logged or Reviewed.            X
FLETC-IT-09-26   System Engineering Lifecycle is not finalized.                 X
FLETC-IT-09-31   Configuration Management Weaknesses on the Procurement
                                                                                X
                 Desktop, Momentum, and GSS.
FLETC-IT-09-33   Momentum Audit Logs are not Reviewed.                                        10-04
FLETC-IT-09-34   GAN audit logs are not reviewed.                                             10-05
FLECT-IT-09-35   Weak access controls around Momentum.                                        10-02
FLETC-IT-09-36   Ineffective logical access controls over the GAN.                            10-03
FLETC-IT-09-37   Physical Security and Security Awareness Issues Identified
                                                                                              10-06
                 during Enhanced Security Testing.
FLETC-IT-09-38   Ineffective logical access controls over SIS.                  X




     Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 
 

                                  Financial Statement Audit 
 

                                           Page 19 
 

                                                                                                                    Appendix D
                                Department of Homeland Security 

                           Federal Law Enforcement Training Center 

                            Information Technology Management Letter
                                       September 30, 2010
                                                                               FederolLD,,' £,ljorcet1JeI,1 Tru':nin T C""ler
                                                                               I .S-lw['"riJnpnl o[Hom"'. nri ......llrit)
                                                                               1131 Chllpel Cnhsing ROlld
                                                                               G IYll<Oo, C""rJ:U 31 ~ ~4


                                                                                                    I d
                                                             "7~              "~Home                 an
                                                               1t'IrkITJtf:




                                                             ~~~ Security
                                        February 23, 2011


MEMORANDUM FOR:              Frank Deffer
                             Assistant Inspector General
                             Information Technology Audits

FROM:                        Sandy H. Peav  d .p.f!.fn~-1.
                             A sistant Dire~Chieflnfdrmation Officer
                             Chief Infonnation Officer Directorate

SUBJECT:                     Respon e to Dratt Audit Report -Information Technology
                             Mtmagemenl Let/erJor the Federal Law J!.'nJorcement 'lraining
                             Center Component of the FY20J 0 DRS Financial Statement Audit-
                             For Official Use Only OIG Project No. /! -029-ITA-FLETC

The Federal Law Enforcement Training Center (FLETC) appreciates your efforts in assessing the
effectiveness of OUT general Infonnation Technology (IT) controls supporting the FLETC's
financial processing environment and related IT illfrastructure. The FL T welcomes your
obs rvations and recommendations faT ensuring a secw'e and compliant operational. nvironment.

We have completed our review ofthe draft management letter from the independent accounting
firm ofKPMG LLP (KPMG) titled information Technology Mcmagemenl Leiterfor the Federal
l.(TW Enforcement Training Center Component'o/the FY 2010 DHS Financial Stntement Audit-For
Ojju:inl ThI'. Only and c.oncur with the otic-,e of Finr:1ings and Recommenc1ations (NFRs)- The
FLETC continues to make progress hy remediating many of it$ prior yeaTS' IT control weaknesses.

The FLETC is committed to improving and enhancing the security and integrity of its financiar
reporting process and 0 eralllT security pOsture.

Point of contact for additional information or questions is the FLETC Chief Infonnation Security
Officer Jeffery W. Johnson, (912) 267-21 "6.

cc:    Director
       Deputy Director
       Chief Financial Officer




 Information Technology Management Letter for the FLETC Component of the FY 2010 DHS 
 

                              Financial Statement Audit 
 

                                       Page 20 
 

                         Department of Homeland Security
 

                    Federal Law Enforcement Training Center 
 

                     Information Technology Management Letter
                                September 30, 2010

               Report Distribution

               Department of Homeland Security

               Secretary
               Deputy Secretary
               General Counsel
               Chief of Staff
               Deputy Chief of Staff
               Executive Secretariat
               Under Secretary, Management
               Director, FLETC
               DHS Chief Information Officer
               DHS Chief Financial Officer
               Chief Financial Officer, FLETC
               Chief Information Officer, FLETC
               Chief Information Security Officer
               Assistant Secretary for Office of Policy
               Assistant Secretary for Office of Public Affairs
               Assistant Secretary for Office of Legislative Affairs
               DHS GAO OIG Audit Liaison
               Chief Information Officer, Audit Liaison
               Audit Liaison, FLETC

               Office of Management and Budget

               Chief, Homeland Security Branch
               DHS OIG Budget Examiner

               Congress

               Congressional Oversight and Appropriations Committees, as appropriate




Information Technology Management Letter for the FLETC Component of the FY 2010 DHS
                             Financial Statement Audit 
 

                                      Page 21 
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
